No.20-6241

IN THE

Supreme Court of the United States
Lisa Marie Smith Petitioner
v.
School District of Philadelphia Kelly Services Inc. Respondent(s)
On Petition for writ of Certiorari to the United States Court of Appeals for the Third Circuit

Petition For Rehearing

Lisa Smith, Pro Se Litigant
6219 Palethrop Street
Philadelphia Pa, 19120
215-457-5802

RECEIVED

RECEIVED

JAN 2 2 2021

JAN 2 2 2021

OFFICE 0,F THE CLERK
SUPREME COURT. U S.

OFFICE OF THE CLERK
SUPREME COURT U.S.

TABLE OF CONTENTS

Pa-5 eTABLE OF CON1ENTS
TABLE OF CITATIONS

ii

PETITION FOR REHEARING

1,2,3

CONCLUSION

3

CERTIFICATE OF COUNSEL

4

TABLE OF CITATIONS
Page

Thompson v. North American Steel, LP 131 S.CT.863 (2011)

,r)

1,3

PETITION FOR REHEARING
Pursuant to Supreme Court Rule 44.1, 1 Lisa Smith respectfully petitions for rehearing of the Court's
per curiam decision issued on December 14, 2020.- (1) Granting rehearing, (2) vacating the court's
December 14, 2020 denying Certiorari and (3) re-disposing of this case by granting the petition for writ
of Certiorari, (4) vacating the Judgment and remanding to the third circuit for further consideration of
state law and the rights of educators, the duty of school districts to protect third party employees from
retaliation, harassment, and discrimination in light of Thompson v. North American Steel, LP 131
S.CT863 (2011) This petition has not been filed for the purpose of delay, but has been filed in
accordence with rule 44.1 of the United States Supreme Court.

Constitutionally, the petitioner ask this court to interpret who has the right to establish the
contstitution for Pennslyvaina Kelly services or the state of Pennslyvania ? Since the passage
Pennsylvania state laws governing school discipline by teachers and Principals this Court has never
15

issued a per curiam opinion, without briefing or argument, reversing a lower appellate court's
affirmation on two constitutional issues whether third party discrimination, retaliation, and protected
activity in the workplace is protected under the constitutional laws of the state of Pennsylvania. The
petitioner invokes this court to interpret Pennsylvania school laws of discipline as it pertains to the
petitioner, an Educator, and third party harassment, retaliation, and discrimination under the
constitution as it pertains to the petitioner. The Petitioner Lisa Smith seeks Certiorari on the
constitutional rights of Educators in their classrooms when substantial control, and intervening
circumstances occur that ultimately leads to an unexpected controlling effect that has a
detrimental effect on the Petitioners inability to fulfill a contract by the employer due to the
above circumstances.

1

And on the issues of state law and school discipline. Does the Petitioner who is required to be
licensed to teach , and follow all Pennsylvania state law guild lines to acquire qualifications to teach in
a classroom to which the Petitioner Lisa Smith had to abide by to meet the qualifications to teach in the
state of Pennsylvania or company policies not legally governed by the state.?
Moreover, every court that petitioner, Lisa Smith has appealed to has upheld company laws instead
of state laws pertaining to school discipline. The petitioner believes this move by the District, and
Appellate court is erroneously basised because these courts were willing to upheld state and city laws
on behalf of the respondents, but rejected the petitioners arguments on Pennsylvania state and federal
laws of school discipline. As a result, this move by the District and Appellate court had a detrimental
effect on her case. The Petitioner seeks a rehearing on this aspect not raised in her petition
constitutionally. In addition, while this court has not addressed workplace polices verses state laws the
granting of the petition for writ of certiorari constitutes intervening circumstances of a substantial or
controlling effect and other substantial grounds not previously presented constitutionally by the
petitioner.

2

CONCLUSION
For the forgoing reasons, Petitioner Lisa Marie Smith prays that this court (1) grant rehearing of
the order denying her petition for writ of certiorari in this case, (2) vacate the court's December 14,
2020, order denying certiorari and (3) grant the petition for a writ of certiorari, vacate the judgment and
remand to the third circuit for further consideration in of Thompson v. North American Steel, LP 131
S.CT863 (2011) for the purpose of determining constitutionally whether state laws should prevail over
company policies constitutionally,

3

